      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




October 13, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Multi-State Review of Centers for Medicare & Medicaid Services Medicaid Drug
               Expenditure Controls (A-07-10-06003)


The attached final report provides the results of our multi-State review of Centers for Medicare
& Medicaid Services Medicaid drug expenditure controls.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-07-10-06003 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   MULTI-STATE REVIEW OF
        CENTERS FOR
MEDICARE & MEDICAID SERVICES
 MEDICAID DRUG EXPENDITURE
         CONTROLS




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-07-10-06003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. Each State
administers its Medicaid program in accordance with a Centers for Medicare & Medicaid
Services-approved (CMS) State plan. Although the State has considerable flexibility in
designing and operating its Medicaid program, it must comply with applicable Federal
requirements.

State Medicaid programs may offer optional services, such as outpatient prescription drugs.

Medicaid Outpatient Prescription Drug Program and
Use of Quarterly Medicaid Drug Tape

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. All States
except Arizona administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. Federal Medicaid funding is generally available for covered
outpatient drugs if the drug manufacturers have rebate agreements with CMS and pay rebates to
the States. The agreements require manufacturers to provide a list of all covered outpatient drugs
to CMS quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes
adjustments for any errors, and sends the tape to the States. The tape indicates the drugs’
termination dates, if applicable; specifies whether the drugs are less than effective; and includes
information that the States use to claim rebates from manufacturers. CMS guidance instructs the
States to use the tape to verify coverage of the drugs for which they claim reimbursement and to
calculate the rebates that the manufacturers owe.

Section 1927(b)(2) of the Act requires each State to report drug utilization data to CMS
quarterly. CMS compares the utilization data with the information on the quarterly drug tape and
identifies any drugs classified as less than effective or drugs not listed on the tape. CMS reports
the discrepancies to each State on the quarterly Utilization Discrepancy Report, which is CMS’s
mechanism for notifying the States of potential problems with their utilization data.

Terminated Drugs, Less-Than-Effective Drugs,
and Drug Expenditure Reimbursement

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the drug. A drug’s termination date is generally defined by
CMS as (1) the expiration date of the last batch of a discontinued drug sold by the manufacturer
or (2) the date that the Food and Drug Administration (FDA) or the manufacturer withdraws a
drug from the market for health and safety reasons or orders such withdrawal. In this report, we
refer to drugs whose termination dates have passed as “terminated drugs.”

                                                 i
Less-than-effective drugs are drugs that FDA found to be safe for their approved indications
before the Drug Amendments of 1962 (P.L. No. 87-781) but that FDA subsequently found to be
less than effective for all of their FDA-approved indications. CMS requires manufacturers to
provide it with a list of all their covered outpatient drugs identifying any less-than-effective
drugs.

The State Medicaid agencies (State agency) claim Medicaid expenditures on a standard form.
CMS reimburses each State agency based on the Federal medical assistance percentage for
Medicaid outpatient drug expenditures (drug expenditures).

OBJECTIVE

Our objective was to determine whether 14 selected State agencies’ claims for reimbursement of
drug expenditures complied with Federal requirements.

SUMMARY OF FINDINGS

The 14 selected State agencies’ claims for reimbursement of drug expenditures did not always
comply with Federal requirements. Of the approximately $41.6 billion in drug expenditures
claimed by the 14 State agencies, the unallowable and potentially unallowable drug expenditures
totaled $258,791,245 ($166,579,985 Federal share): $68,668,509 (Federal share) for drugs not
listed on the quarterly drug tapes, $58,140,937 (Federal share) for terminated drugs, $428,838
(Federal share) for less-than-effective drugs, and $39,341,701 (Federal share) for inadequately
supported drug expenditures.

For the remaining approximately $41.3 billion (approximately $23.4 billion Federal share), we
identified no other drugs that were not included on the quarterly drug tapes or were terminated,
less than effective, or inadequately supported.

Neither CMS nor the 14 State agencies had adequate controls to ensure that all drug expenditures
complied with Federal requirements. CMS did not always ensure that the quarterly drug tapes
listed all covered outpatient Medicaid drugs, nor did it always provide the termination dates to
the State agencies before the termination dates became effective. Additionally, CMS reported
some unallowable and potentially unallowable drug expenditures to State agencies on quarterly
Utilization Discrepancy Reports. However, during our audit period, CMS did not require the
State agencies to amend their claimed drug expenditures, nor did it follow up with the State
agencies to ensure that they had done so.

The 14 State agencies generally did not use the quarterly drug tapes to determine whether drugs
were eligible for coverage and did not contact CMS to determine whether drugs were eligible for
coverage if the drugs were not listed on the quarterly drug tapes.

These shortcomings in internal controls adversely affected the efficiency of the Medicaid
outpatient prescription drug program. Our audits of the 14 State agencies identified potential
cost savings to Medicaid that can be realized through the implementation of our



                                                ii
recommendations. Furthermore, use of terminated or less-than-effective drugs poses potential
quality-of-care implications for the beneficiaries for whom they are prescribed.

RECOMMENDATIONS

We recommend that CMS:

    •   instruct State agencies to develop and implement controls to ensure that claimed drug
        expenditures comply with all Federal requirements and monitor State agencies to ensure
        that they institute policies and procedures so that they:

           o use the quarterly drug tapes to verify whether their drug expenditures are eligible
             for Medicaid coverage and notify CMS if drugs are missing from the tapes,

           o do not claim expenditures for drugs that have been designated as less than
             effective, and

           o maintain documentation supporting all drug expenditures claimed as required;

    •   report terminated drug expenditures to State agencies on the quarterly Utilization
        Discrepancy Reports, require State agencies to use these reports to ensure that their drug
        expenditures comply with Federal requirements, and follow up as necessary with State
        agencies to ensure that claimed drug expenditures comply with Federal requirements;

    •   work with the drug manufacturers and strengthen controls to ensure that the information
        on the quarterly drug tapes is complete and accurate and take appropriate action against
        manufacturers if they are not timely in providing information to CMS for all of their
        covered drugs; and

    •   develop policies and procedures to inform State agencies immediately when a drug has
        been terminated, instruct State agencies to claim expenditures only for drugs dispensed
        before the termination dates, and require State agencies to review and reject all current
        and prior claims for terminated drugs.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our third recommendation, did not
concur with our second recommendation, and partially concurred with our other
recommendations. CMS also described corrective actions that it has taken or plans to take.
CMS’s comments appear in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CMS’s comments has caused us to change our findings or recommendations. As the
administrator of the Medicaid program at the Federal level, CMS has the primary responsibility
to ensure that the State agencies are administering their Medicaid programs appropriately.

                                                iii
                                                     TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Medicaid Outpatient Prescription Drug Program and
                 Use of Quarterly Medicaid Drug Tape ...........................................................1
              Terminated Drugs ................................................................................................2
              Less-Than-Effective Drugs ..................................................................................2
              Reimbursement of Medicaid Expenditures ..........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          CLAIMS FOR REIMBURSEMENT OF DRUG EXPENDITURES DID NOT
            ALWAYS COMPLY WITH FEDERAL REQUIREMENTS ...................................5
               Drugs Not Listed on Quarterly Drug Tapes .........................................................5
               Terminated Drugs ................................................................................................6
               Less-Than-Effective Drugs ..................................................................................7
               Inadequately Supported Medicaid Outpatient Drug Expenditures ......................8

          INADEQUATE CONTROLS TO DETECT UNALLOWABLE CLAIMS
            FOR MEDICAID OUTPATIENT DRUG EXPENDITURES ...................................8
               Centers for Medicare & Medicaid Services Controls ..........................................8
               Fourteen State Agencies’ Controls ......................................................................9

          EFFECT OF INADEQUATE CONTROLS OVER MEDICAID OUTPATIENT
            DRUG EXPENDITURES ..........................................................................................9

          RECOMMENDATIONS .................................................................................................9

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................10
               Controls for Ensuring That State Agencies Use the Quarterly Drug Tape ........10
               Controls for Maintaining Documentation Supporting Drug Expenditures ........11
               Reporting Terminated Drug Expenditures on the Quarterly
                 Utilization Discrepancy Report.....................................................................11
               Development of Policies and Procedures Regarding Terminated Drugs...........12



                                                                    iv
APPENDIXES

    A: SUMMARY OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE
       CLAIMS FOR MEDICAID OUTPATIENT DRUG EXPENDITURES

    B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                               v
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program and
Use of Quarterly Medicaid Drug Tape

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. All States
except Arizona administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. 1 Federal Medicaid funding is generally available for covered
outpatient drugs if the drug manufacturers have rebate agreements with CMS and pay rebates to
the States. The agreements require manufacturers to provide a list of all covered outpatient drugs
to CMS quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes
adjustments for any errors, and sends the tape to the States. The tape indicates the drugs’
termination dates, if applicable; specifies whether the drugs are less than effective; and includes
information that the States use to claim rebates from manufacturers. CMS guidance instructs the
States to use the tape to verify coverage of the drugs for which they claim reimbursement and to
calculate the rebates that the manufacturers owe.

Section 1927(b)(2) of the Act requires each State to report drug utilization data to CMS
quarterly. CMS compares the utilization data with the information on the quarterly drug tape and
identifies any drugs classified as less than effective or drugs not listed on the tape. CMS reports
the discrepancies to each State on the quarterly Utilization Discrepancy Report (UDR), which is
CMS’s mechanism for notifying the States of potential problems with their utilization data.




1
 The Omnibus Budget Reconciliation Act of 1990, P.L. No. 101-508, established the Medicaid drug rebate program
effective January 1, 1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does
not participate.


                                                        1
Terminated Drugs

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the drug. A drug’s termination date is generally defined by
CMS as (1) the expiration date of the last batch of a discontinued drug sold by the manufacturer
or (2) the date that the Food and Drug Administration (FDA) or the manufacturer withdraws a
drug from the market for health and safety reasons or orders such withdrawal. In this report, we
refer to drugs whose termination dates have passed as “terminated drugs.”

Less-Than-Effective Drugs

Less-than-effective drugs are drugs that FDA found to be safe for their approved indications
before the Drug Amendments of 1962 (P.L. No. 87-781) but that FDA subsequently found to be
less than effective for all of their FDA-approved indications. When FDA finds a lack of
substantial evidence that a pre-1962 drug is effective for all intended uses, it publishes a notice in
the Federal Register concerning its proposal to withdraw approval of the drug. The drug is
considered less than effective until the manufacturer can prove its effectiveness.

For the Medicaid drug rebate program, CMS relies on drug manufacturers to identify their
less-than-effective drugs. CMS requires manufacturers to provide it with a list of all their
covered outpatient drugs, identifying any less-than-effective drugs.

Reimbursement of Medicaid Expenditures

In general, the State Medicaid agencies (State agency) claim Medicaid expenditures on standard
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64 report). CMS reimburses each State agency based on the Federal medical
assistance percentage for the majority of claimed Medicaid expenditures, including Medicaid
outpatient drug expenditures (drug expenditures).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether 14 selected State agencies’ claims for reimbursement of
drug expenditures complied with Federal requirements.

Scope

This report summarizes the results of our audits of 14 State agencies: California, Colorado,
Connecticut, Illinois, Iowa, Michigan, Missouri, Montana, Nebraska, New York, Pennsylvania,
Tennessee, Texas, and West Virginia. The audit periods reviewed for each of these State
agencies varied. (See Appendix A.)




                                                  2
The audit scope for this report comprised approximately $41.6 billion (approximately
$23.5 billion Federal share) in drug expenditures that the 14 State agencies claimed for the
respective periods reviewed. We limited our testing of these expenditures to determining
compliance with specific Federal requirements and guidance related to whether the drugs were
terminated, less than effective, supported with adequate documentation, or included on the
quarterly drug tapes.

We limited our internal control review to the procedures in place at the 14 State agencies and at
CMS for determining whether the outpatient drugs claimed were eligible for Medicaid coverage
and were accurately claimed.

We conducted fieldwork at the State agencies’ offices in each of the 14 States and at CMS
headquarters in Baltimore, Maryland.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance and the approved State plan for each of the 14 States. We interviewed State agency
officials responsible for identifying and monitoring drug expenditures and rebate amounts, as
well as staff responsible for reporting the drug expenditures to CMS. We also interviewed CMS
officials responsible for identifying and monitoring drug expenditures and rebate amounts.

Centers for Medicare & Medicaid Services Review

To determine whether CMS had adequate controls over drug expenditures, we reviewed its
process for monitoring the drug utilization data that State agencies report to CMS quarterly.

We reviewed CMS guidance associated with terminated drugs and less-than-effective drugs. We
also analyzed the effect of CMS delays in including termination dates on the quarterly drug
tapes.

Based on our reviews of the 14 State agencies, we also compiled a list of drugs whose costs we
had set aside for CMS adjudication because the drug products were not listed on the quarterly
drug tapes. From this list, we selected a judgmental sample of the 30 drugs with the largest total
expenditures to determine why these drugs were not listed on the quarterly drug tapes. The costs
associated with these 30 drugs represented approximately 50 percent of the $68.7 million in
Federal expenditures identified for drugs that were not listed on the quarterly drug tapes. We
provided this list to CMS for its review.

We discussed the results of our review with CMS officials on September 29, 2010.

State Agencies’ Reviews

To determine whether drug expenditures complied with Federal requirements, we obtained a
detailed listing of each of the 14 State agencies’ drug expenditures for the time periods covered
by each review and reconciled these data to the amounts reported on the States’ CMS-64 reports.

                                                3
We then compared the drugs claimed to the quarterly drug tapes to determine whether the drugs
were: (1) listed as covered outpatient drugs, 2 (2) dispensed after their termination dates, 3 or
(3) listed as less than effective.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The 14 selected State agencies’ claims for reimbursement of drug expenditures did not always
comply with Federal requirements. Of the approximately $41.6 billion in drug expenditures
claimed by the 14 State agencies, the unallowable and potentially unallowable drug expenditures
totaled $258,791,245 ($166,579,985 Federal share):

    •    $68,668,509 (Federal share) for drugs not listed on the quarterly drug tapes,

    •    $58,140,937 (Federal share) for terminated drugs,

    •    $428,838 (Federal share) for less-than-effective drugs, and

    •    $39,341,701 (Federal share) for inadequately supported drug expenditures.

For the remaining approximately $41.3 billion (approximately $23.4 billion Federal share), we
identified no other drugs that were not included on the quarterly drug tapes or were terminated,
less than effective, or inadequately supported.

Neither CMS nor the 14 State agencies had adequate controls to ensure that all drug expenditures
complied with Federal requirements. CMS did not always ensure that the quarterly drug tapes
listed all covered outpatient Medicaid drugs, nor did it always provide the termination dates to
the State agencies before the termination dates became effective. Additionally, CMS reported
some unallowable and potentially unallowable drug expenditures to State agencies on quarterly
UDRs. However, during our audit period, CMS did not require the State agencies to amend their


2
  For any drugs that were not listed on the quarterly tape, we determined whether the 14 State agencies had verified
that the drugs were eligible for Medicaid coverage. If the drugs were compound drugs, we requested supporting
documentation that identified the individual drug components. (Compound drugs are created by combining two or
more prescription or nonprescription drug products and repackaging them into a new capsule or other dosage form.)
3
  To account for delays in processing data for terminated drugs, we used either the termination date listed on the
quarterly tape or the first day of the quarter after the State agency received the tape as the termination date if the
termination date was not reported in a timely manner. The audit we performed in Nebraska did not account for these
delays in processing data for terminated drugs. To account for this difference in methodology, we have separately
identified the questioned amounts associated with terminated drugs.


                                                          4
claimed drug expenditures, nor did it follow up with the State agencies to ensure that they had
done so.

The 14 State agencies generally did not use the quarterly drug tapes to determine whether drugs
were eligible for coverage and did not contact CMS to determine whether drugs were eligible for
coverage if the drugs were not listed on the quarterly drug tapes.

These shortcomings in internal controls adversely affected the efficiency of the Medicaid
outpatient prescription drug program. Our audits of the 14 State agencies identified potential
cost savings to Medicaid that can be realized through the implementation of our
recommendations.

Furthermore, use of terminated or less-than-effective drugs poses potential quality-of-care
implications for the beneficiaries for whom they are prescribed.

CLAIMS FOR REIMBURSEMENT OF DRUG EXPENDITURES DID NOT
ALWAYS COMPLY WITH FEDERAL REQUIREMENTS

Drugs Not Listed on Quarterly Drug Tapes

Federal Requirements

Section 1927(a)(1) of the Act generally conditions Federal Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those drugs enter into agreements with
CMS to pay rebates to the States. 4 CMS requires manufacturers to provide a list of all covered
outpatient drugs to CMS quarterly. CMS includes these drugs on the quarterly drug tapes and
makes adjustments for any errors.

Section 1927(k)(4) of the Act provides that covered outpatient drugs shall also include drugs that
may be sold without a prescription (over-the-counter drugs) if these drugs are approved by the
State plan and prescribed by a physician.

According to the CMS Medicaid drug rebate program memorandum to State Medicaid directors,
number 130: “… the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program…. If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy … check with CMS to assure that the
[drug code] is valid….” Furthermore, the CMS Medicaid drug rebate program memorandum to
State Medicaid directors, number 44, provides that: “States must check the [quarterly drug tape]
to ensure the continued presence of a drug product….”

In addition, page S-13 of CMS’s Medicaid Drug Rebate Operational Training Guide states: “If
you have paid for [a drug code] that is NOT on [the quarterly drug tape] you should have
checked to make sure it was correct. If you paid a pharmacy for utilization on an invalid [drug
code], you may have to … recoup your funds.”

4
 A State may exempt certain drugs from this requirement if the State has determined that availability of the drug is
essential to the health of Medicaid beneficiaries and if certain other conditions are met.

                                                          5
Claims for Drugs Not Listed on Quarterly Drug Tapes

Our audits of the 14 State agencies determined that they claimed $68,668,509 (Federal share) in
potentially unallowable expenditures for drug products that were not listed on the quarterly drug
tapes. None of the State agencies reviewed contacted CMS to ensure that the drugs were eligible
for Medicaid coverage under the Act. As a result, the 14 State agencies did not have evidence
that these payments were allowable Medicaid expenditures and were, therefore, eligible for
Federal reimbursement.

For our judgmental sample of 30 drugs with the largest total expenditures, CMS provided the
following reasons why they were not listed on the quarterly drug tapes:

    •   Twenty-six drugs had not been reported to CMS in time for CMS to include them on the
        quarterly drug tape and so were eligible for Federal reimbursement.

    •   Two drugs were associated with manufacturers that did not participate in the Medicaid
        drug rebate program and so were not eligible for Federal reimbursement. One
        manufacturer never participated in the drug rebate program, and the other had been
        terminated from the drug rebate program on July 1, 2000.

    •   Two drugs were removed from the quarterly drug tape during the cumulative time
        periods covered by our reviews of the 14 State agencies. Officials from CMS were
        unable to explain why these drugs were deleted from the tape. We were unable to
        determine whether these drugs would have been eligible for Federal reimbursement.

Some of the expenditures for drug products that were not listed on the quarterly drug tapes were
not eligible for Federal reimbursement. For the drugs that were eligible for Federal
reimbursement, the 14 State agencies may not have known the amounts to invoice the
manufacturers for the associated rebates. Consequently, the 14 State agencies may not have
appropriately invoiced the manufacturers for these rebates and may have lost the opportunity to
earn revenues from these rebates.

Terminated Drugs

Federal Requirements

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the drug. A drug’s termination date is generally defined by
CMS as (1) the expiration date of the last batch of a discontinued drug sold by the manufacturer
or (2) the date that FDA or the manufacturer withdraws a drug from the market for health and
safety reasons or orders such a withdrawal. 5



5
 Medicaid Drug Rebate Operational Training Guide, page F7 (Sept. 2001); Medicaid Drug Rebate Program
Release No. 19, page 5.

                                                    6
According to the CMS Medicaid drug rebate program memorandum to State Medicaid directors,
number 19, the States “… must … assure that claims submitted by pharmacists are not for drugs
dispensed after the termination date. These should be rejected as invalid since these drugs
cannot be dispensed after this date.”

In addition, the CMS Medicaid drug rebate program memorandum to State Medicaid directors,
number 130, states that “… the CMS [quarterly drug tape] is the one to use for ALL data when
you are dealing with the drug rebate program….” The quarterly drug tapes list the Medicaid-
covered drugs’ termination dates as reported by the manufacturers.

Claims for Terminated Drugs

Our audits of the 14 State agencies determined that they claimed $58,140,937 (Federal share) in
unallowable and potentially unallowable expenditures for drugs dispensed after the termination
dates reported by the manufacturers. These terminated drug expenditures had the following
issues:

   •   Our audits identified $16,133,403 (Federal share) in unallowable expenditures for drugs
       dispensed after the relevant State agencies became aware that the drugs in question had
       been terminated. For example, one State agency paid for the drug Zocor, which was
       dispensed on September 15, 2004. Based on the drug code claimed, the termination date
       for the last batch of this drug was May 31, 2004, according to the tapes beginning with
       the quarter ended March 31, 2002. The State agency had received information about the
       drug’s termination date 2 years before it was dispensed to a beneficiary and claimed for
       reimbursement.

   •   Our audits identified $42,007,534 (Federal share) in potentially unallowable expenditures
       for drugs dispensed before the relevant State agencies became aware that the drugs in
       question had been terminated. Because CMS often did not report in a timely manner the
       termination dates on the quarterly tapes, the State agencies may not have been aware that
       particular drugs had been terminated. For example, one State agency paid for the drug
       Lorabid, which was dispensed on March 10, 2003. Based on the drug code claimed, the
       drug’s termination date for the last batch of this drug was July 1, 2002, which was not
       reported on the tapes until the quarter ended June 30, 2003. The State agency did not
       receive information about the drug’s termination date until almost a year after it had been
       terminated.

Less-Than-Effective Drugs

Federal Requirements

Section 1903(i)(5) of the Act prohibits Federal Medicaid funding for drug products that are
ineligible for Medicare payment pursuant to section 1862(c) of the Act. Section 1862(c) of the
Act generally prohibits Federal funding for drug products determined to be less than effective for
all conditions prescribed, recommended, or suggested on the products’ labels. The quarterly
drug tapes identify drugs that have been determined to be less than effective. According to the

                                                7
CMS Medicaid drug rebate program memorandum to State Medicaid directors, number 130: “…
the CMS [quarterly drug tape] is the one to use for ALL data when you are dealing with the drug
rebate program….”

Claims for Less-Than-Effective Drugs

Our audits determined that 7 of the 14 State agencies claimed $428,838 (Federal share) in
unallowable expenditures because drugs were classified as less than effective on the quarterly
drug tapes. For example, one State agency paid for the drug Estratest, which was dispensed on
September 23, 2004. However, CMS had reported the drug as less than effective on the tapes
beginning with the quarter that ended September 30, 2003. The claimed expenditure was
unallowable because the drug was dispensed after CMS had reported it as less than effective.

Inadequately Supported Medicaid Outpatient
Drug Expenditures

Federal Requirements

According to the CMS State Medicaid Manual, section 2497.1: “Expenditures are allowable
only to the extent that, when a claim is filed, you have adequate supporting documentation in
readily reviewable form to assure that all applicable Federal requirements have been met.” To
receive reimbursement for covered outpatient drugs, State agencies must maintain
documentation identifying the specific drugs used.

Claims for Inadequately Supported Medicaid Outpatient
Drug Expenditures

As discussed in more detail in reports listed in Appendix A, our audits of the 14 State agencies
determined that 8 of the 14 claimed $39,341,701 (Federal share) in unallowable drug
expenditures because they did not have supporting documentation. The eight State agencies
attributed their inadequately supported claims to various reasons, including their inability to
identify the individual components of a compound drug, irreconcilable data, and duplicated
expenditures.

INADEQUATE CONTROLS TO DETECT UNALLOWABLE CLAIMS
FOR MEDICAID OUTPATIENT DRUG EXPENDITURES

Centers for Medicare & Medicaid Services Controls

CMS did not have adequate controls to ensure that all drug expenditures submitted by the 14
State agencies complied with Federal requirements. CMS did not always ensure that the
quarterly drug tapes listed all covered outpatient Medicaid drugs, nor did it ensure that the
termination dates were provided to the State agencies before the termination dates became
effective.




                                                8
Although it did not receive information for all covered drugs from the drug manufacturers, CMS
had not, during the period of our reviews of the 14 State agencies, imposed penalties on the
manufacturers to ensure that they provided complete and timely information.

CMS reported some unallowable and potentially unallowable drug expenditures, such as those
associated with less-than-effective drugs and drugs that were not listed on the quarterly drug
tape, to the State agencies on quarterly UDRs. However, as of September 29, 2010, CMS had
not required the 14 State agencies to amend their claimed drug expenditures based on the
discrepancies identified, nor did CMS follow up with the 14 State agencies to ensure that they
had done so. Further, CMS did not identify utilization of terminated drugs on the quarterly
UDRs.

Fourteen State Agencies’ Controls

The 14 State agencies did not have adequate controls to ensure that all drug expenditures
complied with Federal requirements. The 14 State agencies generally did not use the quarterly
drug tape to determine whether a drug was eligible for coverage and did not contact CMS to
determine whether a drug was eligible for coverage if the drug was not listed on the quarterly
drug tape. As a result, the 14 State agencies claimed reimbursement for some Medicaid
outpatient drugs that were not eligible for Federal reimbursement.

EFFECT OF INADEQUATE CONTROLS OVER MEDICAID OUTPATIENT
DRUG EXPENDITURES

The 14 selected State agencies’ claims for reimbursement of drug expenditures did not always
comply with Federal requirements. The unallowable and potentially unallowable expenditures,
caused by shortcomings in internal controls at CMS and at the 14 State agencies, totaled
$166,579,985 (Federal share). Furthermore, use of terminated or less-than-effective drugs has
quality-of-care implications for the beneficiaries for whom these drugs are prescribed. Because
terminated drugs have expired or have been pulled from the market for health or safety reasons,
they could be weak, ineffective, or detrimental to beneficiaries’ health.

Less-than-effective drugs lack substantial evidence of effectiveness for all intended purposes.
Although the use of less-than-effective drugs may not cause direct physical harm to
beneficiaries, reliance on these drugs could be detrimental when they are used instead of drugs
whose effectiveness has been verified.

RECOMMENDATIONS

We recommend that CMS:

    •   instruct State agencies to develop and implement controls to ensure that claimed drug
        expenditures comply with all Federal requirements and monitor State agencies to ensure
        that they institute policies and procedures so that they:




                                                9
            o use the quarterly drug tapes to verify whether their drug expenditures are eligible
              for Medicaid coverage and notify CMS if drugs are missing from the tapes,

            o do not claim expenditures for drugs that have been designated as less than
              effective, and

            o maintain documentation supporting all drug expenditures claimed as required;

    •   report terminated drug expenditures to State agencies on the quarterly UDRs, require
        State agencies to use these reports to ensure that their drug expenditures comply with
        Federal requirements, and follow up as necessary with State agencies to ensure that
        claimed drug expenditures comply with Federal requirements;

    •   work with the drug manufacturers and strengthen controls to ensure that the information
        on the quarterly drug tapes is complete and accurate and take appropriate action against
        manufacturers if they are not timely in providing information to CMS for all of their
        covered drugs; and

    •   develop policies and procedures to inform State agencies immediately when a drug has
        been terminated, instruct State agencies to claim expenditures only for drugs dispensed
        before the termination dates, and require State agencies to review and reject all current
        and prior claims for terminated drugs.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with our third recommendation, did not
concur with our second recommendation, and partially concurred with our other
recommendations. CMS also described corrective actions that it has taken or plans to take. A
summary of the recommendations with which CMS did not concur and our responses follows.
CMS’s comments appear in their entirety as Appendix B.

Nothing in CMS’s comments has caused us to change our findings or recommendations. As the
administrator of the Medicaid program at the Federal level, CMS has the primary responsibility
to ensure that the State agencies are administering their Medicaid programs appropriately.

Controls for Ensuring That State Agencies Use the Quarterly Drug Tape

Centers for Medicare & Medicaid Services Comments

CMS stated that a drug’s eligibility for Federal reimbursement cannot solely be determined by
the quarterly drug tape. CMS also said that it is the manufacturers’ responsibility to ensure that
they report only rebate-eligible drugs to the Medicaid drug rebate program.

CMS described guidance that it has already issued to manufacturers and said that it will reiterate
instructions to the Medicaid State agencies regarding (1) use of the quarterly drug tape to ensure

                                                10
that the expenditures claimed are appropriate and (2) the way to proceed when drugs are missing
from the quarterly drug tape.

Office of Inspector General Response

We agree that the quarterly drug tape has limitations and, as indicated in our report, that there are
cases in which the drugs claimed are eligible for reimbursement despite not being listed on the
quarterly drug tape. Our recommendation is for CMS to instruct the State agencies to develop
and implement controls so that they use the quarterly drug tape to verify whether a drug is
eligible for reimbursement. Notwithstanding CMS’s statement that it only partially concurred
with this part of our first recommendation, the corrective actions described by CMS are
consistent with our recommendation.

Controls for Maintaining Documentation Supporting Drug Expenditures

Centers for Medicare & Medicaid Services Comments

CMS stated that we had not sufficiently explained this recommendation or explained what
inadequate documentation existed. CMS added that it will follow up with us to get more
information regarding this recommendation.

Office of Inspector General Response

This report is a summary of the findings that we discussed in individual reports to the 14 State
agencies, as listed in Appendix A. More detailed explanations of the issues that led to this
recommendation can be found in those individual reports. We will coordinate with CMS and
provide further detail regarding any findings for which sufficient detail does not exist in the
individual reports. We continue to recommend that CMS instruct and monitor the State agencies
to ensure that they are maintaining adequate documentation supporting all drug expenditures.

Reporting Terminated Drug Expenditures on the Quarterly
Utilization Discrepancy Report

Centers for Medicare & Medicaid Services Comments

CMS stated that the UDRs are not intended to inform State agencies of drug product information,
such as termination dates. CMS added that the UDRs are sent to State agencies only in response
to receipt of quarterly utilization data, “… so this would not adequately correct the issue [of
drugs dispensed after their termination dates as reported by manufacturers] from a
timing/frequency perspective.”

CMS also stated that it has provided the State agencies with “an interface to access the Drug
Data Reporting for Medicaid System,” which allows State agencies to view appropriate
manufacturer product changes, including the changes to termination dates.




                                                 11
Office of Inspector General Response

As stated in our report, CMS compares the utilization data received from the State agencies with
the information on the quarterly drug tape and identifies any drugs classified as less than
effective or drugs not listed on the tape. CMS reports these discrepancies to each State agency
on the quarterly UDRs. However, CMS does not identify utilization of terminated drugs on the
UDRs. Furthermore, CMS has not provided the State agencies with guidance on how to proceed
when potentially unallowable drug utilization has been identified on the UDRs. Although the
Drug Data Reporting for Medicaid System will provide more readily available information to
State agencies, the UDRs, which are already in place, allow CMS to monitor, identify, and report
back to the State agencies regarding potential problems with their utilization data. Therefore, we
continue to recommend that CMS include terminated drugs on the quarterly UDRs and require
the State agencies to use these reports to ensure that the State agencies claim only drugs that
comply with Federal requirements.

Development of Policies and Procedures Regarding Terminated Drugs

Centers for Medicare & Medicaid Services Comments

CMS did not concur that the State agencies should claim expenditures only for drugs dispensed
before the termination date because manufacturers do not report these termination dates properly
or in a timely manner. CMS added that it believes that further work is needed to ensure
manufacturer compliance and said that it will reiterate to manufacturers and State agencies the
requirements regarding terminated drugs.

Office of Inspector General Response

According to the CMS Medicaid drug rebate program memorandum to State Medicaid directors,
number 19, the States “…must … assure that claims submitted by pharmacists are not for drugs
dispensed after the termination date…. If you find that the manufacturer’s termination date is
incorrect (e.g., a pharmacist has stock with an expiration date later than what the manufacturer
stated), please notify us.” Although CMS has already provided guidance to the State agencies to
prevent utilization of terminated drugs and has requested the State agencies to monitor these
termination dates for accuracy, CMS is not currently requiring State agencies to review and
reject their prior drug expenditures for terminated drugs. For this reason, we continue to
recommend that CMS develop policies and procedures to ensure that State agencies (1) claim
expenditures only for drugs dispensed before the termination dates and (2) review and reject all
current and prior claims for terminated drugs, thereby ensuring that all drugs dispensed to
Medicaid beneficiaries are safe and effective and that these claims comply with Federal
requirements.




                                               12
APPENDIXES
                            APPENDIX A: SUMMARY OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE
                                    CLAIMS FOR MEDICAID OUTPATIENT DRUG EXPENDITURES
                                                                                           FEDERAL            SHARE
                                                                                                                                                  Claims for
                              Audit Period                 Unallowable and Potentially Unallowable Expenditures Reported to State
                                                                                                                                                 Terminated
                                                                          Claims for                       Claims for Drugs                        Drugs—
                                                        Claims for        Less-Than-                        Not Listed on                        Termination
      State                                             Terminated         Effective     Unsupported       Quarterly Drug                         Dates Not
   (Report No.)         Start Date      End Date          Drugs             Drugs           Drugs               Tapes                Total         Timely 1
California
(A-09-07-00039)          10/1/2003      9/30/2005            $3,057,929             $0      $21,024,264            $10,926,099     $35,008,292      $9,528,275
Colorado
(A-07-07-04113)          10/1/2002      9/30/2004                21,678              0                0                459,604         481,282          84,595
Connecticut
(A-01-07-00003)          10/1/2003      9/30/2005                61,732              0                0              9,404,911       9,466,643         962,841
Illinois
(A-05-07-00019)          10/1/2003      9/30/2005               108,331              0                0              3,485,893       3,594,224       4,029,689
Iowa
(A-07-06-04062)          10/1/2002      9/30/2004               154,245              0                0              1,079,386       1,233,631         254,524
Michigan
(A-05-08-00048)          10/1/2003      9/30/2005                61,909         43,709                0              2,937,769       3,043,387         339,675
Missouri
(A-07-06-04063)          10/1/2002      9/30/2004             1,985,938              0          951,118              1,887,845       4,824,901         629,141
Montana
(A-07-07-04103)          10/1/2001      9/30/2004                11,454              0          980,986                363,210       1,355,650         129,479
Nebraska
(A-07-05-04056)          10/1/2002      9/30/2004                28,683         26,635       13,169,719                608,624      13,833,661         120,774
New York
(A-02-07-01028)          10/1/2003      9/30/2005               578,321         89,650          568,331             16,189,125      17,425,427      11,568,129
Pennsylvania
(A-03-07-00203)          10/1/2003      9/30/2005             1,800,651        145,794        2,451,283              5,900,935      10,298,663       1,069,124
Tennessee
(A-04-07-00027)          10/1/2003      9/30/2005             7,925,673         44,607                0             13,224,612      21,194,892       7,709,435
Texas
(A-06-07-00092)          10/1/2003      9/30/2005               242,726         77,973            4,209                 52,986         377,894       3,660,779
West Virginia
(A-03-07-00220)          10/1/2003      9/30/2005                94,133            470          191,791              2,147,510       2,433,904       1,921,074
Total                                                       $16,133,403       $428,838      $39,341,701            $68,668,509    $124,572,451     $42,007,534




        1
         The claims were for drugs dispensed before the relevant State agencies became aware that the drugs in question had been terminated. For this reason, these
        potentially unallowable expenditures were not included in the individual audit reports we issued to the State agencies.
                                                                                                                           Page 1 of 5


APPENDIX B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 




    /-"."......
(         ~         DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Cent.... lor Medlca" & Medicaid Services

    ,~                                                                                        Administrator
                                                                                               Wuhtnglon. oc cWOt




                  DATE:
                                   MAY 0 4 1all

                  TO: 	         Daniel R. Levinson
                                Inspector General

                  FROM: 	       Donald M. Berwid.:., M.D.
                                Administrator

                  SUBJ ECT: 	 Office of Inspector General (OIG) Dratl Report: "Nationwide Review of Centers
                              for Medicare & Medicaid Services Medicaid Drug Expenditure Controls" (A-07­
                              10-06003)


                  Thank you for the opportunity to review and comment on the subject OIG draft report.
                  The OIG reviewed 14 selected State agencies' claims fo r reimbursement of Medicaid drug
                  expenditures to detennine if they oomplied \\'ith Federal requirements. The O[G used the
                  Medicaid Budget Expenditure System (MBES) data to determine how much Stales had
                  submitted to the Centers for Medicare & Medicaid Services (CMS) 10 receive Federal fWlds for
                  prescription drugs.

                  The OIG found that the 14 selected State agencies claims for reimbursement did not always
                  comply with Federal requirements. The findings noted that of the approximately $41.6 billion in
                  drug expenditures claimed by the 14 State agencies, Ihe tmallowable and potentially Wlallowable
                  drug expenditures totaled $258.791,245 ($166,579.985 Federal share); of which $68,668,509
                  (Federal share) was fo r drugs not listed on the quarterly drug tapes, $58, 140,937 (Federal share)
                  was for terminated drugs, $428,838 (Federal share) was for less-than-effective drugs, and
                  $39,341.70 I (Federal share) was for inadequately supported drug expenditures. For the
                  remaining approximately $41.3 billion (approximately $23 .4 billion Federal share), the OIG
                  identified no deficiencies.

                  The OlG also found that neither eMS nor the 14 State agencies had adequate controls to ensure
                  thatlhe quarterly drug tapes listed all covered outpatient Medicaid drugs, no r did it always
                  provide the termination dates to the State agencies before the lennill3.tion dates became effective.
                  Additionally, the OIG stated that eMS reported some unallowable and potentially unallowable
                  drug expenditures to State agencies on quarterly Utilization Discrepancy Rcport~. However,
                  during Ihe OIG audit period, the OIG fOWld that CMS did not requ ire the Stale agencies 10
                  amend their claimed drug expendi tures, nor did eMS follow up with the Stale agencies to ensure
                  thai they had done so.
                                                                                                        Page 2 of 5




Page 2- Daniel R. Levinson

In addition. the 14 State agencies generall y did not use the quarterly drug tapes to delennine
whether drugs were eligible for coverage and did nol contact eMS to detennine whether drugs
were eligible for coverage if the drugs were not listed on the quarterly drug tapes.

We appreciate the OIG's work in this area. However. for the reasons that follow in response to
the 01G recommendations, we do not agree ",;th the OIG's contention that the bulk of the
monies the OiG identified as unallowable or potentially unallowable are in fact so absent further
work by the 01G to document these claims.

Ole Rerommendlltion

eMS should instruct State agencies to develop and implement controls to ensure that claimed
drug expenditures comply with all Federal req uirements and monitor State age ncies to ensure
that they institute policies and procedures so that they use the quarterly drug tapes to verify
whether their drug expenditures are eligible for Medicaid coverage and notify CMS if drugs are
missing from the tapes.

C MS Response

We partially concur. Please note that it is the manufacturer's responsibility to ensure that they
only report rebate-eligible drugs to the Medicaid Drug Rebate Program (MDRP). As we
discussed with the OIG at the entmnce confereoce for this report. the MDRP quarterly rebate file
can generally be used to detennine which drugs the manufacturer represented as rebate-eligible.
eMS has issued releases. added language to the Medicaid Drug Rebate Data Guide for Labelers,
and continued to update manufactu rers on the requirement to submit onl y rebate-eligible drugs to
the MDRP. Finally, we have added language to many standard manufacturer letters requesting
that the companies review their list ofdrugs submitted 10 the MDRP to ensure that they nre
rebate-eli gible.

While we believe that States can generally rely o n the quarterl y rebate file to delennine whethe r
a covered outpatient drug is correctly included for Federal reimbursement on the MBES 64
reporting form, the larger issue of any drugs' appropriate inclusion by Slates for Federal
reimbursement cannot solely be determined by the MDRP quarterly rebate file. Manufacturers
may market drugs between limes the MDRP file s are sent to the States and those wi ll nOI appear
on the tapes prior to the States claims for reimbursement of these drugs. Also, manufac turers
may report their drugs alter a reporting period is elosed or may have timely produet data rejected
for formatti ng issues, hut the drug is validly covered by the States. States may a lso appropriately
seek Federal share funds for other non-rebate-ciigible drugs as allowed by law and approved
State plans.

 We will reite rate to States how to usc the quarterly rebate file to ensure that expenditure claims
 for rcbate-eligi ble drugs are appropriately made and will issue guidance to States on how to
 proceed when drugs are missing on the quarterly fil e in the Medicaid Drug Rebate Data Guide
                                                                                                    Page 3 of 5




Page 3- Daniel R. Levinson

for States. We will also discuss with the OIG the appropriateness ofassessing civil money
penalties (CMPs) on those manufacturers that submit non-reba te-eligible drugs.

DIG Recommendation

CMS should instruct State agencies to develop and implement controls to ensure that claimed
drug expenditures comply with all Federal requirements and monitor State agencies to ensure
that they institute policies and procedures so that they do not claim expenditures for drugs that
have been designated as less than effective.

CMS Response

We concur and will reiterate these requirements i.n the Medicaid Drug Rebate Data Guide for
States. To the extent that drugs that have been determined to be less than effective for all
conditions of use prescribed, reconunended, or suggested in their labeling have been properly
identified to the States, we believe that such expenditures are improper and subject to Federal
audit and disallowance.

D IG Recommendation

CMS should instruct State agencies to develop and implement controls to ensure that claimed
drug expcnditure~ comply with all Federal rcquircmcnt~ and monitor State agencic3 to ensure
thai they institute policies and procedures so that they maintain documentation supponing all
drug expenditures claimed as required.

eMS Response

We do not concur as we do not believe that the DIG has provided a sufficient explanation of this
reconunendation and what inooequate documentation existed. We will follow up with the DIG
for mote information on this recommendation.

OIG Recommendation

 CMS should repon terminated drug expenditures to State agencies on the quarterly Utili7..ation
 Discrepancy Reports, require State agencies to use these repons to ensure that their drug
 expenditures comply with Federal requirements, and follow up as necessary with State agencies
 to ensure that claimed drug expenditures comply with Federal requirements.

 CMS Response

 We do not concur with using the Uti1i7..ation Discrepancy Repon to tr.msmit this data field to
 States. State Utilization Discrepancy repons (SUDRs) are not meant to infonn States of labe1cr
 updates to drug product infonnation such as tennination date inputs and changes. SUDRs arc
                                                                                                            Page 4 of 5




Page 4· Daniel R. Levinson

also only sent to States in responsc to receipt of utilization data due oncc per quarter, so this
would not adequately correct the issue from a timing/frequency perspective. However, we have
provided States with an in terface to access the Drug Data Reporting for Medicaid Systcm (DDR)
where they may view appropriate manufacturer product changes, incl uding the input or change to
the termination date field. Most States have obtaincd access to DDR and can vicw termination
dales on a regular basis. "Ibe Stales that do not havc access to DDR receive the termination dale
informalion on the rebate file s that are senl lo them quarterly.

For labclers that do not comply with accurate and ti mely reporting of their termination dates, we
plan to discuss v.ith the DIG the appropriateness of CMPs.

DIG Recommendation

CMS should work with the drug manufacturers and stre ngthen controls to ensure that the
information on the quarte rly drug tapes is complete and accurate and take appropriate action
against manufaclUre rs if they are not timely in prov iding information 10 CMS for al l of their
covered drugs.

eMS Response

We concur, and plan 10 reiterate this rebate requirement in a manufacturer release. Additionally,
for labelers that do not com ply .....-ith accurate and timely reporting o f their term ination dates, we
plan to discuss with the OIG the appropriatencss of CMPs.

DIG RecommendatioD

CM S should develop policies and procedures to inform State agencies immediately when a drug
has been terminated, instruct State agencies to claim expenditures onl y fo r drugs dispensed
before Ihe tcrmination dates, an d require State agencies to re view and reject all current and prior
claims for terminated drugs.

e MS Response

We concur that we should inform States immediately when a drug has been terminated. CMS
has enhanced the DDR to provide a State interface, which allows Slates to view drug termination
dates along with other product data prior to receipt of the quarterly rebate file and we are
working on further enhancements to that system.

However, we do not concur that we should instruct State agencies to claim expenditures only for
drugs dispensed before the termination dates, and req uire State agencies to review and reject al l
current and prior claims for tenninated drugs. While we believe our guidance in manufacturer
and State releases are c lear on this point, we do not believe manufacturers properly and time ly
report such tennination dates. We believe furthcr work is needed in this area 10 assure
manufacturer compliance and plan to reiterate to manufacturers and Stales the requirements
                                                                                                   Page 5 of 5




Page 5- Daniel R. Levinson

regarding tcnninaled drugs. Absenllhat, we do not believe it appropriate 10 disallow
expenditures for these claims.

Furthennore, for labelers that do not comply with timely reponing of their tennination dates, we
plan to d iscuss with the DIG the appropriateness of the eMP assessment for late reponing of the
tenninalion date.

The eMS would again like 10 thank the 010 for their effons in reviewing the compliance of
States' participation in the Medicaid Drug Rebate Program for the re imbursement of drug
expenditures.
